No. _______

IN THE
SUPREME COURT OF THE UNITED STATES
___________
PEDRO RODRIGUEZ-CALDERON,
Petitioner
v.
UNITED STATES OF AMERICA
Respondent
___________
APPENDIX
___________

Kevin Joel Page
Assistant Federal Public Defender
Federal Public Defender’s Office
Northern District of Texas
525 S. Griffin Street, Suite 629
Dallas, TX 75202
(213) 767-2746
Joel_page@fd.org

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit
USA v. Rodriguez-Calderon, #20-10813
Appendix B Judgment and Sentence of the United States District Court for the
Northern District of Texas
USA v. Rodriguez-Calderon, 4:20-CR-00078-P
Northern District of Texas-Fort Worth Division

APPENDIX A

Case: 20-10813

Document: 00515711365

Page: 1

Date Filed: 01/19/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

___________

FILED
January 19, 2021

No. 20-10813
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Pedro Rodriguez -Calderon,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:20-CR-78-1
____________________________
Before Haynes, Willett, and Ho, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10813

Document: 00515711341

Page: 1

Date Filed: 01/19/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

January 19, 2021

No. 20-10813
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Pedro Rodriguez -Calderon,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 4:20-CR-78-1
Before Haynes, Willett, and Ho, Circuit Judges.
Per Curiam:*
Pedro Rodriguez-Calderon appeals the 37-month, within-guidelines
sentence imposed following his guilty plea conviction for illegal reentry after
removal from the United States.

He contends that his sentence is

unconstitutional because his indictment alleged only those facts sufficient for

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10813

Document: 00515711341

Page: 2

Date Filed: 01/19/2021

No. 20-10813

a conviction under 8 U.S.C. § 1326(a) and did not include any allegations of
a prior conviction necessary for a sentence enhancement under § 1326(b)(2).
He concedes that this argument is foreclosed by Almendarez-Torres v. United
States, 523 U.S. 224, 226-27 (1998), but seeks to preserve the issue for further
review. The Government has filed an unopposed motion for summary
affirmance, agreeing that the issue is foreclosed, and in the alternative, a
motion for an extension of time to file a brief.
As the Government argues, and Rodriguez-Calderon concedes, the
sole issue raised on appeal is foreclosed by Almendarez-Torres. See United
States v. Wallace, 759 F.3d 486, 497 (5th Cir. 2014); United States v. PinedaArrellano, 492 F.3d 624, 625-26 (5th Cir. 2007). Because the issue is
foreclosed, summary affirmance is appropriate. See Groendyke Transp., Inc.
v. Davis, 406 F.2d 1158, 1162 (5th Cir. 1969).
Accordingly, the Government’s motion for summary affirmance is
GRANTED, and the judgment of the district court is AFFIRMED. The
Government’s alternative motion for an extension of time to file a brief is
DENIED.

2

App. A 003

APPENDIX B

Case 4:20-cr-00078-P Document 32 Filed 08/10/20

Page 1 of 5 PageID 66

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF TEXAS
Fort Worth Division

UNITED STATES OF AMERICA

JUDGMENT IN A CRIMINAL CASE

v.

Case Number: 4:20-CR-00078-P(01)
U.S. Marshal’s No.: 86080-280
Shawn Smith for Levi Thomas, Assistant U.S. Attorney
John Stickney, Attorney for the Defendant

PEDRO RODRIGUEZ-CALDERON

On April 29, 2020 the defendant, PEDRO RODRIGUEZ-CALDERON, entered a plea of guilty as to
Count One of the Information filed on April 15, 2020. Accordingly, the defendant is adjudged guilty of such
Count, which involves the following offense:
Title & Section

Nature of Offense

Offense Ended

Count

8 U.S.C. § 1326(a) and (b)(2))

Illegal Reentry after Deportation

12/15/2019

One

The defendant is sentenced as provided in pages 2 through 4 of this judgment. The sentence is imposed
pursuant to Title 18, United States Code § 3553(a), taking the guidelines issued by the United States Sentencing
Commission pursuant to Title 28, United States Code § 994(a)(1), as advisory only.
The defendant shall pay immediately a special assessment of $100.00 as to Count One of the Information
filed on April 15, 2020.
The defendant shall notify the United States Attorney for this district within thirty days of any change of
name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this
judgment are fully paid.

Sentence imposed August 6, 2020.

____________________________________________
MARK T. PITTMAN
U.S. DISTRICT JUDGE

Signed August 10, 2020.

App. B 001

Case 4:20-cr-00078-P Document 32 Filed 08/10/20

Page 2 of 5 PageID 67

Judgment in a Criminal Case
Defendant: PEDRO RODRIGUEZ-CALDERON
Case Number: 4:20-CR-00078-P(1)

Page 2 of 5

IMPRISONMENT
The defendant, PEDRO RODRIGUEZ-CALDERON, is hereby committed to the custody of the Federal
Bureau of Prisons (BOP) to be imprisoned for a term of Thirty-Seven (37) months as to Count One of the
Information filed on April 15, 2020.
The defendant is remanded to the custody of the United States Marshal.
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be placed on supervised release for a term of Three
(3) years as to Count One of the Information filed on April 15, 2020.
As a condition of supervised release, upon the completion of the sentence of imprisonment, the
defendant shall be surrendered to a duly-authorized immigration official for deportation in accordance with the
established procedures provided by the Immigration and Nationality Act, 8 USC § 1101 et seq. As a further
condition of supervised release, if ordered deported or removed, the defendant shall remain outside the United
States.
In the event the defendant is not deported immediately upon release from imprisonment, or should the
defendant ever be within the United States during any portion of the term of supervised release, the defendant
shall also comply with the standard conditions contained in the Judgment and shall comply with the mandatory
and special conditions stated herein:
1) The defendant shall report to the probation office in the federal judicial district where he or she is
authorized to reside within 72 hours of release from imprisonment, unless the probation officer
instructs the defendant to report to a different probation office or within a different time frame;
2) After initially reporting to the probation office, the defendant will receive instructions from the
court or the probation officer about how and when to report to the probation officer, and the
defendant shall report to the probation officer as instructed;
3) The defendant shall not knowingly leave the federal judicial district where he or she is authorized
to reside without first getting permission from the court or the probation officer;
4) The defendant shall answer truthfully the questions asked by the probation officer;
5) The defendant shall live at a place approved by the probation officer. If the defendant plans to
change where he or she lives or anything about his or her living arrangements (such as the people
the defendant lives with), the defendant shall notify the probation officer at least 10 days before
the change. If notifying the probation officer at least 10 days in advance is not possible due to
unanticipated circumstances, the defendant shall notify the probation officer within 72 hours of
becoming aware of a change or expected change;
App. B 002

Case 4:20-cr-00078-P Document 32 Filed 08/10/20
Judgment in a Criminal Case
Defendant: PEDRO RODRIGUEZ-CALDERON
Case Number: 4:20-CR-00078-P(1)

Page 3 of 5 PageID 68
Page 3 of 5

6) The defendant shall allow the probation officer to visit the defendant at any time at his or her home
or elsewhere, and the defendant shall permit the probation officer to take any items prohibited by
the conditions of the defendant's supervision that he or she observed in plain view;
7) The defendant shall work full time (at least 30 hours per week) at a lawful type of employment,
unless the probation excuses the defendant from doing so. If the defendant does not have full-time
employment, he or she shall try to find full-time employment, unless the probation officer excuses
the defendant from doing so. If the defendant plans to change where the defendant works or
anything about his or her employment (such as the position or the job responsibilities), the
defendant shall notify the probation officer at least 10 days before the change. If notifying the
probation officer in advance is not possible due to unanticipated circumstances, the defendant shall
notify the probation officer within 72 hours of becoming aware of a change or expected change;
8) The defendant shall not communicate or interact with someone the defendant knows is engaged in
criminal activity. If the defendant knows someone has been convicted of a felony, the defendant
shall not knowingly communicate or interact with that person without first getting the permission
of the probation officer;
9) If the defendant is arrested or questioned by a law enforcement officer, the defendant shall notify
the probation officer within 72 hours;
10) The defendant shall not own, possess, or have access to a firearm, ammunition, destructive device,
or dangerous weapon (i.e., anything that was designed , or was modified for, the specific purpose
of causing bodily injury or death to another person, such as nunchakus or tasers);
11) The defendant shall not act or make an agreement with a law enforcement agency to act as a
confidential human source or informant without first getting the permission of the court;
12) If the probation officer determines that the defendant poses a risk to another person (including an
organization), the probation officer may require the defendant to notify the person about the risk
and the defendant shall comply with that instruction. The probation officer may contact the person
and confirm that the defendant has notified the person about the risk; and,
13) The defendant shall follow the instructions of the probation officer related to the conditions of
supervision.

In addition the defendant shall:
not commit another federal, state, or local crime;
not possess illegal controlled substances;
App. B 003

Case 4:20-cr-00078-P Document 32 Filed 08/10/20

Page 4 of 5 PageID 69

Judgment in a Criminal Case
Defendant: PEDRO RODRIGUEZ-CALDERON
Case Number: 4:20-CR-00078-P(1)

Page 4 of 5

not possess a firearm, destructive device, or other dangerous weapon;
cooperate in the collection of DNA as directed by the U.S. probation officer;
report in person to the U.S. Probation Office in the district to which the defendant is released from the
custody of the Federal Bureau of Prisons, or in which the defendant makes entry into the United States,
within 72 hours of release or entry;
not illegally re-enter the United States, if deported, removed, or allowed voluntary departure; and,
refrain from any unlawful use of a controlled substance. The defendant must submit to one drug test
within 15 days of placement on probation and at least two periodic drug tests thereafter, as determined
by the court.
FINE/RESTITUTION
The Court does not order a fine or costs of incarceration because the defendant does not have the financial
resources or future earning capacity to pay a fine or costs of incarceration.
Restitution is not ordered because there is no victim other than society at large.

App. B 004

Case 4:20-cr-00078-P Document 32 Filed 08/10/20

Page 5 of 5 PageID 70

Judgment in a Criminal Case
Defendant: PEDRO RODRIGUEZ-CALDERON
Case Number: 4:20-CR-00078-P(1)

Page 5 of 5

RETURN
I have executed this judgment as follows:

Defendant delivered on _____________________ to ___________________________________
at ________________________________________________, with a certified copy of this judgment.

United States Marshal
BY
Deputy Marshal

App. B 005

